                        SPECTO
                   IN            R 
              F                       G
          O                               E
     E




                                          N
     C




                                              E
FI




                                              RA
OF




                                                  L
                                                      OFFICE OF INSPECTOR GENERAL
	
                                                           EXPORT-IMPORT BANK 

                                                            of the UNITED STATES
	




                               Audit of the 

                          Export-Import Bank 

                           of the United States 

                            Fiscal Year 2013 

                          Financial Statements
	

                                                                   December 13, 2013
                                                                       OIG-AR-14-02
To:        Fred P. Hochberg, Chairman and President
           David M. Sena, Senior Vice President and Chief Financial Officer

From:      Rebecca Sharek
           Assistant Inspector General for Audits

Subject:   Audit of Export-Import Bank’s Financial Statements for Fiscal
           Year 2013
           (Report No. OIG-AR-14-02)

Date:      December 13, 2013

This memorandum transmits Deloitte and Touche LLP’s audit reports of the Export-
Import Bank of the United States (Ex-Im Bank) financial statements for fiscal year
ended 2013. Under a contract monitored by this office, we engaged the independent
public accounting firm of Deloitte and Touche to perform the audit. The contract
requires the audit to be conducted in accordance with: United States generally
accepted government auditing standards; Office of Management and Budget audit
guidance; and the Government Accountability Office/President’s Council on
Integrity and Efficiency Financial Audit Manual.

Deloitte and Touche issued an unqualified opinion on Ex-Im Bank’s financial
statements. Also, Deloitte and Touche did not identify any internal control
deficiencies considered material weaknesses. In addition, Deloitte and Touche
reported no instances of noncompliance with certain provisions of laws and
regulations which could have a direct and material effect on the determination of
financial statement amounts.

Deloitte and Touche noted other matters involving the internal control over
financial reporting that will be reported to Ex-Im Bank in a separate letter.

Deloitte and Touche is responsible for the attached auditor’s reports dated
December 12, 2013, and the conclusions expressed in the reports. We do not
express opinions on Ex-Im Bank’s financial statements or internal control or
conclusions on compliance with laws and regulations.

We appreciate the cooperation and courtesies provided to Deloitte and Touche and
this office during the audit. If you have questions, please contact me at (202) 565-
3169 or rebecca.sharek@exim.gov. You can obtain additional information about the
Export-Import Bank Office of Inspector General and the Inspector General Act of
1978 at www.exim.gov/oig.


                  811 Vermont Avenue, NW Washington, D.C. 20571
cc:	   C.J. Hall, Executive Vice President and Chief Risk Officer
       Michael Cushing, Senior Vice President and Chief Operating Officer
       Audit Committee
       Nathalie Herman, Treasurer, Office of the Chief Financial Officer
       Patricia Wolf, Controller, Office of the Chief Financial Office
       Fernanda Young, Chief Information Officer
       John Lowry, Director, Information Technology Security and Systems
         Assurance

       Inci Tonguch-Murray, Business Compliance Officer

       Duncan Barks, Partner, Deloitte and Touche LLP





                 811 Vermont Avenue, N.W. Washington, D.C. 20571
                  Export-Import Bank of the United States
                   Fiscal Year 2013 Financial Statements

                               Table of Contents


Independent Auditors’ Report                                Section 1

Independent Auditors’ Report on Internal
Control over Financial Reporting and on
compliance and other matters based on an audit
of Financial Statements performed in accordance
with Government Auditing Standards                          Section 2

Financial Statements                                        Section 3
    Balance Sheets
    Statements of Net Costs
    Statements of Changes in Net Position
    Combined Statements of Budgetary Resources
    Notes to the Financial Statements
Export-Import Bank of the United States




             SECTION 1




INDEPENDENT AUDITORS’ REPORT
Deloitte.                                                                                  De loitte & Touche LLP
                                                                                           1750 Tysons Blvd.
                                                                                           Mclean, VA 221 02-42 19
                                                                                           USA
                                                                                           Te l: +1 703 251 1000
                                                                                           Fax: + 1 703 251 3400
                                                                                           www.deloitte.co m



INDEPENDENT AUDITORS' REPORT


To the Audit Committee, the Board of Directors, and the Inspector General of the Export­
Import Bank of the United States

We have audited the accompanying financial statements of the Export-Import Bank of the United States
("Ex-Im Bank" or the "Bank"), which are comprised of the balance sheets as of September 30, 2013 and
2012, and the related statements of net costs, changes in net position, and the combined statements of
budgetary resources for the years then ended, and the related notes to the financial statements.

Management's Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with accounting principles generally accepted in the United States of America; this includes
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of financial statements that are free from material misstatement, whether due to fraud or
error.

Auditors' Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in the Government Auditing Standards,
issued by the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. I 4-02, Audit Requirements for Federal Financial Statements , as amended. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the financial statements. The procedures selected depend on the auditor's judgment, including the
assessment of the risks of material misstatement ofthe financial statements, whether due to fraud or error.
In making those risk assessments, the auditor considers internal control relevant to the Bank's preparation
and fair presentation of the financial statements in order to design audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank' s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the financial statements. We
believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                                                                                          Member of
                                                                                          Deloitte ToucheTohmatsu Limited
Opinion

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of Ex-Im Bank as of September 30, 2013 and 2012, and its net costs ofoperations and
changes in net position, and combined budgetary resources for the years then ended in accordance with
accounting principles generally accepted in the United States of America.

Emphasis-of-Matter

As discussed in Note 1 to the financial statements, according to the guidance in the revised OMB
Circular A-1 36, Financial Reporting Requirements, the presentation of the Combined Statements of
Budgetary Resources (SBR) for the years ended September 30, 2013 and 2012, was reformatted to better
align with information presented in the Budget of the United States Government.

Other-Matter

The accompanying required supplementary information included in the sections entitled "Management's
Discussion and Analysis" and "Required Supplementary Information" are not required parts of the basic
financial statements but are supplementary information required by OMB Circular A-136, as amended,
and the Federal Accounting Standards Advisory Board. This supplementary information is the
responsibility of Ex-Im Bank's management. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and presentation
of required supplementary information. However, we did not audit such supplementary information and
we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our report dated December 12,
2013, on our consideration of Ex-Im Bank's internal control over financial reporting and on our tests of
its compliance with certain provisions of laws, regulations, contracts, and agreements. The purpose of that
report is to describe the scope of our testing of internal control over financial reporting and comp Iiance
and the results of that testing, and not to provide an opinion on internal control over financial reporting or
on compIiance. That report is an integral part of an audit performed in accordance with Government
Auditing Standards, and should be considered in assessing the results of our audits.




McLean, Virginia 

December 12, 2013 





                                                    -2­
      Export-Import Bank of the United States




                   SECTION 2



 INDEPENDENT AUDITORS’ REPORT ON INTERNAL
 CONTROL OVER FINANCIAL REPORTING AND ON

COMPLIANCE AND OTHER MATTERS BASED ON AN

AUDIT OF FINANCIAL STATEMENTS PERFORMED IN

   ACCORDANCE WITH GOVERNMENT AUDITING

                 STANDARDS

Deloitte.                                                                              Deloitte & Touche LLP
                                                                                       1750 Tysons Blvd.
                                                                                       Mclean, VA 22102-4219
                                                                                       USA
                                                                                       Tel: +170325 1 1000
                                                                                       Fax: +1 703 251 3400
                                                                                       www.deloitte.com



 INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND
 ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF FINANCIAL STATEMENTS
 PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

 To the Audit Committee, the Board of Directors, and the Inspector General of the Export­
 Import Bank of the United States

 We have audited, in accordance with the auditing standards generally accepted in the United
 States of America and the standards applicable to financial audits contained in Government
 Auditing Standards issued by the Comptroller General ofthe United States and Office of
 Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial
 Statements, as amended, the financial statements ofthe Export-Import Bank of the United
 States ("Ex-IM" or the " Bank") as of and for the year ended September 30, 2013, and the related
 notes to the financial statements, and have issued our report thereon dated December 12,
 2013.

 Internal Control Over Financial Reporting

 In planning and performing our audit of the financial statements, we considered Ex-I m's internal
 control over financial reporting (internal control) to determine the audit procedures that are
 appropriate in the circumstances for the purpose of expressing our opinions on the financial
 statements, but not for the purpose of expressing an opinion on the effectiveness of Ex-I m's
 internal control. Accordingly, we do not express an opinion on the effectiveness of Ex-lm's
 internal control.

 A deficiency in internal control exists when the design or operation of a control does not allow
 management or employees, in the normal course of performing their assigned functions, to
 prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
 deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
 possibility that a material misstatement of the entity's financial statements will not be
 prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
 or a combination of deficiencies, in internal control that is less severe than a material weakness,
 yet important enough to merit attention by those charged with governance.

 Our consideration of internal control was for the limited purpose described in the first
 paragraph ofthis section and was not designed to identify all deficiencies in internal control that
 might be material weaknesses or significant deficiencies. Given these




                                                                                      Member of
                                                                                      Oeloitte Touche Tohmatsu Li mited
limitations, during our audit we did not identify any deficiencies in internal control that we
consider to be material weaknesses. However, material weaknesses may exist t hat have not
been identified .

We noted other matters involving the internal control over financial reporting that w ill be
reported to Ex-Im Bank in a separate letter.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether Ex-Im's fina ncial statements are free
from material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit, and accordingly, we do not express such
an opinion. The results of our tests disclosed no instances of noncompliance or other matters
that are required to be reported under Government Auditing Standards and OMB Bulletin
No. 14-02, as amended.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
compliance and the results of that testing, and not to provide an opinion on the effectiveness of
the Ex-I m's internal control or on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards and OMB Bulletin No. 14-02, as
amended, in considering Ex-IM's internal control and compliance. Accordingly, this
commu nication is not suitable for any other purpose.




Mclean, Virginia
December 12, 2013
Export-Import Bank of the United States




             SECTION 3




     FINANCIAL STATEMENTS
                                           Export-Import Bank of the United States




Balance Sheets


                                                                                 As of                  As of
(in millions)                                                              September 30, 2013     September 30, 2012
ASSETS

Intragovernmental
     Fund Balance with the U.S. Treasury (Note 2)                                     $3,387.0              $2,477.3

Public
    Cash (Note 3)                                                                          0.1                   0.1
    Loans Receivable, Net (Note 4A)                                                   16,447.5              10,865.4
    Receivables from Subrogated Claims, Net (Note 4E)                                    247.0                 303.7
    Other Assets (Note 8)                                                                 33.7                  22.8
Total Assets - Public                                                                 16,728.3              11,192.0

Total Assets                                                                         $20,115.3              $13,669.3
LIABILITIES

Intragovernmental
     Borrowings from the U.S. Treasury (Note 10)                                     $18,101.8             $11,301.3
     Accounts Payable to the U.S. Treasury                                             1,201.2                 704.0
Total Liabilities - Intragovernmental                                                 19,303.0              12,005.3

Public
    Payment Certificates (Note 10)                                                        33.1                  47.5
    Claims Payable                                                                        12.5                   2.5
    Guaranteed Loan Liability (Note 4G)                                                1,620.8               1,814.0
    Other Liabilities (Note 11)                                                          263.6                 563.0
Total Liabilities - Public                                                             1,930.0               2,427.0

Total Liabilities                                                                     21,233.0               14,432.3


NET POSITION

    Capital Stock                                                                      1,000.0               1,000.0
    Unexpended Appropriations                                                            213.2                 212.9
    Cumulative Results of Operations                                                  (2,330.9)             (1,975.9)
Total Net Position                                                                    (1,117.7)               (763.0)


Total Liabilities and Net Postion                                                    $20,115.3              $13,669.3

The accompanying notes are an integral part of the financial statements.
                                                       Export-Import Bank of the United States




Statements of Net Costs



(in millions)                                                               Loans            Guarantees      Insurance      Total
            For the Year Ended September 30, 2013
Costs
          Interest Expense                                                     $666.9                $-             $-      $666.9
          Claim Expenses                                                           -                  4.1            3.5        7.6
          Provision for Credit Losses                                          1,037.4              (76.9)          35.6      996.1
          Broker Commissions                                                       -                  -              6.8        6.8
Total Costs                                                                    1,704.3              (72.8)          45.9    1,677.4

Earned Revenue
        Interest Income                                                         (633.2)             (94.8)            -       (728.0)
        Fee and Other Income                                                     (68.0)            (409.0)            -       (477.0)
        Insurance Premium and Other Income                                          -                  -           (48.0)      (48.0)
Total Earned Revenue                                                            (701.2)            (503.8)         (48.0)   (1,253.0)

Total Net Excess Program Costs Over (Revenue)                                  1,003.1             (576.6)          (2.1)     424.4

        Administrative Costs (Note 4k, 14)                                                                                    115.5
        Liquidating Account Distribution of Income                                                                              -

Total Net Excess Program Costs Over (Revenue)                                                                                $539.9




(in millions)                                                               Loans            Guarantees      Insurance      Total
            For the Year Ended September 30, 2012
Costs
          Interest Expense                                                     $523.9               $-              $-      $523.9
          Claim Expenses                                                          -                  7.2             3.8       11.0
          Provision for Credit Losses                                           341.4              644.6            36.9    1,022.9
          Broker Commissions                                                      -                  -               6.5        6.5
Total Costs                                                                     865.3              651.8            47.2    1,564.3

Earned Revenue
        Interest Income                                                         (459.5)             (66.6)            -      (526.1)
        Fee and Other Income                                                     (39.3)            (327.1)            -      (366.4)
        Insurance Premium and Other Income                                          -                  -           (42.4)     (42.4)
Total Earned Revenue                                                            (498.8)            (393.7)         (42.4)    (934.9)

Net Excess of Program Costs Over (Revenue)                                       366.5             258.1             4.8      629.4

        Administrative Costs (Note 4k, 14)
                                                                                    98.7
        Liquidating Account Distribution of Income
                                                                            23.4

Total Net Excess Program Costs Over (Revenue)                                                                                $751.5

The accompanying notes are an integral part of the financial statements.
                                                 Export-Import Bank of the United States



 Statements of Changes in Net Position
                                                                             For the Year Ended September 30, 2013
                                                            Capital         Unexpended        Cumultative Results
(in millions)                                               Stock          Appropriations        of Operations       Total

Beginning Net Position                                       $1,000.0              $212.9               ($1,975.9)     ($763.0)

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General               -                   4.0                    -             4.0
         Appropriations Received - Reestimate                      -               1,024.5                    -         1,024.5
         Canceled Authority                                        -                  (2.3)                   -            (2.3)
         Transfer Out Without Reimbursement                        -                   -                 (1,001.3)     (1,001.3)
         Other Adjustments                                         -                   3.2                    4.3           7.5
         Appropriations Used                                       -              (1,029.1)               1,029.1           -
         Offsetting Collections                                    -                   -                    149.3         149.3
Other Financing Sources
         Imputed Financing                                         -                  -                      3.5           3.5
Total Financing Sources (Uses)                                     -                  0.3                  184.9         185.2
Adjusted Net Position                                         1,000.0               213.2                (1,791.0)       (577.8)

Less: Excess of Program Costs Over Revenue                         -                  -                    539.9         539.9

Ending Net Position                                          $1,000.0              $213.2               ($2,330.9)    ($1,117.7)




                                                                             For the Year Ended September 30, 2012
                                                             Capital        Unexpended        Cumultative Results
(in millions)                                                Stock         Appropriations        of Operations       Total

Beginning Net Position                                       $1,000.0              $215.8               ($1,675.5)     ($459.7)

Budgetary Financing Sources (Uses)
         Appropriations Received - Inspector General               -                  4.0                     -             4.0
         Appropriations Received - Reestimate                      -                793.5                     -           793.5
         Canceled Authority                                        -                 (0.4)                    -            (0.4)
         Transfer Out Without Reimbursement                        -                  -                    (486.4)       (486.4)
         Other Adjustments                                         -                  0.6                    (0.3)          0.3
         Appropriations Used                                       -               (800.6)                  800.6           -
         Offsetting Collections                                    -                  -                     134.1         134.1
Other Financing Sources
         Imputed Financing                                         -                   -                     3.1           3.1
Total Financing Sources (Uses)                                     -                  (2.9)                451.1         448.2
Adjusted Net Position                                         1,000.0               212.9                (1,224.4)           (11.5)

Less: Excess of Program Costs Over Revenue                         -                  -                    751.5         751.5

Ending Net Position                                          $1,000.0              $212.9               ($1,975.9)     ($763.0)

The accompanying notes are an integral part of the financial statements.
Combined Statements of Budgetary Resources


                                                                                                                For the Year Ended                                   For the Year Ended
                                                                                                                 September 30, 2013                                  September 30,2012
                                                                                                                    Non-Budgetary                                      Non-Budgetary
                                                                                                                    Credit Reform                                      Credit Reform
                                                                                                                       Financing                                           Financing
(in millions)                                                                                  Budgetary                Account         Total       Budgetary               Account        Total
Budgetary Resources:
    Unobligated Balance Brought Forward, October 1                                                   $857.7                $1,409.3     $2,267.0         $1,198.7             $1,283.6       $2,482.3
    Recoveries of Prior Year Unpaid Obligations                                                         12.8                1,419.5      1,432.3             21.4                215.5          236.9
    Other Changes in Unobligated Balance                                                                (2.4)                (959.1)      (961.5)            (3.0)            (1,919.3)      (1,922.3)
    Unobligated Balance From Prior Year Budget Authority, Net                                          868.1                1,869.7      2,737.8          1,217.1               (420.2)         796.9
    Appropriations (discretionary and mandatory)                                                       628.3                     -         628.3            397.5                   -           397.5
    Borrowing Authority (discretionary and mandatory) (Note 16)                                           -                 5,746.9      5,746.9               -              13,640.5       13,640.5
    Spending Authority From Offsetting Collections (discretionary and mandatory)                       242.9                3,495.2      3,738.1            229.7              3,238.3        3,468.0
    Total Budgetary Resources (Note 16)                                                             $1,739.3              $11,111.8    $12,851.1         $1,844.3            $16,458.6      $18,302.9

Status of Budgetary Resources:
   Obligations Incurred (Note 16)                                                                   $1,196.5               $9,048.3    $10,244.8          $986.6             $15,049.3      $16,035.9
   Unobligated Balance, End of Year:
        Apportioned                                                                                    283.8                2,063.5      2,347.3            607.7              1,409.3        2,017.0
        Unapportioned                                                                                  259.0                     -         259.0            250.0                   -           250.0
   Total Unobligated Balance, End of Year (Note 16)                                                    542.8                2,063.5      2,606.3            857.7              1,409.3        2,267.0
   Total Status of Budgetary Resources                                                              $1,739.3              $11,111.8    $12,851.1         $1,844.3            $16,458.6      $18,302.9

Change in Obligated Balance:
  Unpaid Obligations, Brought Forward, October 1                                                      $119.3              $17,231.6    $17,350.9            $99.2             $9,574.2        $9,673.4
  Obligations Incurred                                                                               1,196.5                9,048.3     10,244.8            986.6             15,049.3        16,035.9
  Outlays (Gross)                                                                                   (1,185.9)              (9,107.2)   (10,293.1)          (945.1)            (7,176.4)       (8,121.5)
  Recoveries of Prior Year Unpaid Obligations                                                          (12.8)              (1,419.5)    (1,432.3)           (21.4)              (215.5)         (236.9)
  Unpaid Obligations, End of Year                                                                      117.1               15,753.2     15,870.3            119.3             17,231.6        17,350.9
Uncollected Payments:
  Uncollected payments, Federal sources brought forward, Oct 1                                             -                 (141.7)      (141.7)               -                    -                 -
  Change in uncollected payments, Federal sources                                                          -                   16.1         16.1                -                (141.7)           (141.7)
  Actual transfers, uncollected payments, Federal sources (net)                                            -                     -            -
  Uncollected Customer Payments From Federal Sources, End of Year                                          -                 (125.6)      (125.6)               -                (141.7)           (141.7)
Memorandum (non-add) entries
  Obligated balance, start of year                                                                   $119.3               $17,089.9    $17,209.2           886.4               8,763.0        9,649.4
  Obligated Balance, End of Year, Net                                                                $117.1               $15,627.6    $15,744.7          $119.3             $17,089.9      $17,209.2

Budget Authority and Outlays, Net:
  Budget Authority, Gross (discretionary and mandatory)                                              $871.1                $9,241.9    $10,113.0          $627.1             $16,878.9      $17,506.0
  Actual Offsetting Collections (discretionary and mandatory)                                        (263.3)               (3,550.0)    (3,813.3)         (253.1)             (3,133.0)      (3,386.1)
  Change in Uncollected Customer Payments From Federal Sources (discretionary and mandatory)             -                     16.1         16.1              -                 (141.7)        (141.7)
  Budget Authority, Net (discretionary and mandatory)                                                $607.8                $5,708.0     $6,315.8          $374.0             $13,604.2      $13,978.2

   Outlays, Gross (discretionary and mandatory)                                                     $1,185.9               $9,107.2    $10,293.1          $945.1              $7,176.4        $8,121.5
   Actual Offsetting Collections (discretionary and mandatory)                                        (263.3)              (3,550.0)    (3,813.3)         (253.1)             (3,133.0)       (3,386.1)
   Outlays, Net (discretionary and mandatory)                                                         $922.6               $5,557.2     $6,479.8          $692.0              $4,043.4        $4,735.4


The accompanying notes are an integral part of the financial statements.
                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

1. Summary of Significant Accounting and Reporting Policies

Enabling Legislation and Mission
The Export-Import Bank of the United States (Ex-Im Bank or the Bank) is an
independent executive agency and a wholly owned U.S. government corporation that
was first organized as a District of Columbia banking corporation in 1934. Ex-Im Bank is
the official export-credit agency of the United States. Ex-Im Bank's operations
subsequent to September 30, 1991, are subject to the provisions of the Federal Credit
Reform Act (FCRA) of 1990 (P.L. 101-508), which became effective October 1, 1991.
The Export-Import Bank Reauthorization Act of 2012 extended the Bank’s charter until
September 30, 2014.

Ex-Im Bank’s mission is to support U.S. jobs by facilitating the export of U.S. goods and
services, by providing competitive export financing, and ensuring a level playing field for
U.S. goods and services in the global marketplace. Ex-Im Bank supports U.S. exports by
providing export financing through its loan, guarantee and insurance programs in cases
where the private sector is unable or unwilling to provide financing or when such support
is necessary to level the playing field due to financing provided by foreign governments
to their exporters that compete with U.S. exporters. The Bank’s charter requires
reasonable assurance of repayment for the transactions it authorizes, and the Bank
closely monitors credit and other risks in its portfolio. In pursuit of its mission of
supporting U.S. exports, Ex-Im Bank offers four financial products: direct loans, loan
guarantees, working capital guarantees and export credit insurance. All Ex-Im Bank
obligations carry the full faith and credit of the U.S. government.

Loans and guarantees extended under the medium-term loan program typically have
repayment terms of one to seven years, while loans and guarantees extended under the
long-term loan program usually have repayment terms in excess of seven years.
Generally, both the medium-term and long-term loan and guarantee programs cover up
to 85 percent of the U.S. contract value of shipped goods.

Under the Working Capital Guarantee Program, Ex-Im Bank provides repayment
guarantees to lenders on secured, short-term working capital loans made to qualified
exporters. The working capital guarantee may be approved for a single loan or a
revolving line of credit. Ex-Im Bank’s working capital guarantee protects the lender from
default by the exporter for 90 percent of the loan principal and interest. Ex-Im Bank's
Supply Chain Finance Guarantee Program (SCF Program) is designed to support U.S.
exporters and their U.S. based suppliers many of whom are small and medium sized
companies. Under the SCF Program, lenders will purchase accounts receivable owned
by the suppliers and due from the exporter. Ex-Im Bank provides a 90 percent guarantee
on the repayment obligation of the exporter. The purchase of accounts receivable allows
suppliers to receive immediate payment of their outstanding invoices, decreases their
cost of financing, and enables them to better fulfill new orders and maintain and/or add
jobs. The exporters benefit by having the option to extend payment terms without
imposing undue financial hardship on their suppliers.

Ex-Im Bank’s export-credit insurance policies help U.S. exporters sell their goods
overseas by protecting them against the risk of foreign-buyer or other foreign-debtor
default for political or commercial reasons, allowing them to extend credit to their
international customers. Insurance policies may apply to shipments to one buyer or


                                             1

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

many buyers, insure comprehensive (commercial and political) credit risks or only 

political risks, and cover short-term or medium-term sales. 


Basis of Accounting

The format of the financial statements and footnotes is in accordance with form and 

content guidance provided in Office of Management and Budget (OMB) Circular A-136, 

Financial Reporting Requirements, revised as of October 21, 2013. 


According to the guidance in the revised Circular A-136, the presentation of the
Combined Statements of Budgetary Resources (SBR) for the years ended September
30, 2013 and 2012 was reformatted to better align with information presented in the
Budget of the United States government.

Use of Estimates
The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets, liabilities, and net position and
disclosure of contingent assets and liabilities at the date of the financial statements and
the reported amounts of revenues and costs during the reporting period. The most
significant of these estimates are the allowances for losses on loans receivable,
subrogated claims receivable, and guarantees and insurance. Ex-Im Bank uses its
historical default and recovery experience to calculate loss estimates. Actual results may
differ from those estimates.

Loans Receivables, Net
Loan obligations are carried at principal and interest receivable amounts less an
allowance for credit losses.

From time to time, Ex-Im Bank extends the repayment date and may modify the interest
rate of some or all principal installments of a loan because the obligor or country has
encountered financial difficulty and Ex-Im Bank has determined that providing relief in
this manner will enhance the ability to collect the loan.

Receivables from Subrogated Claims, Net
Receivables from subrogated claims represent the outstanding balance of payments that
were made on claims that were submitted to Ex-Im Bank in its capacity as guarantor or
insurer under Ex-Im Bank's export guarantee or insurance programs. Receivables from
subrogated claims are carried at principal and interest receivable amounts less an
allowance for claim losses. Under the subrogation clauses in its guarantee and
insurance contracts, Ex-Im Bank receives all rights, title and interest in all amounts
relating to claims paid under insurance policies and guarantees and therefore
establishes an asset to reflect such rights.




                                             2

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


Accrued Interest
Interest is accrued on loans and claims as it is earned. Generally, loans and subrogated
claims receivable delinquent 90 days or more are placed on a nonaccrual status unless
they are well-secured and significant collections have been received. At the time that a
loan or claim is placed on nonaccrual status, any accrued but unpaid interest previously
recorded is reversed against current-period interest income. The interest on these loans
is accounted for on a cash basis until qualifying for return to accrual status. Loans are
returned to accrual status when all principal and interest amounts contractually due are
brought current and future payments are reasonably assured.

Accounting for Capitalized Interest on Rescheduled Loans and Subrogated Claims
Rescheduling agreements frequently allow for Ex-Im Bank to add uncollected interest to
the principal balance of rescheduled loans and subrogated claims receivable (i.e.,
capitalized interest). When capitalized, any accrued interest receivable is reversed
against current period’s interest income. The amount of interest that was capitalized and
included in the principal balance is recorded as income when cash collections occur and
only after all principal not related to the capitalized interest is paid. An allowance is
established for all uncollected capitalized interest.

Allowance for Losses on Loans, Guarantees, Insurance and Subrogated Claims
The allowance for losses provides for estimated losses inherent in the loan, claim,
guarantee and insurance portfolios. The allowance is established through a provision
charged to earnings. Write-offs are charged against the allowance when management
believes the uncollectibility of a loan or claim balance is confirmed. Subsequent
recoveries, if any, are credited to the allowance.

The allowance is evaluated on a regular basis by management and is based upon
management’s periodic review of the collectability of the credits in light of historical and
market experience, the nature and volume of the credit portfolio, adverse situations that
may affect the borrower’s ability to repay, estimated value of any underlying collateral,
and prevailing worldwide economic and political conditions. This evaluation is inherently
subjective as it requires estimates that are susceptible to significant revision as more
information becomes available.

The allowance for Ex-Im Bank credit-reform credits represents the amount of estimated
credit loss associated with the applicable credit. The credit loss is defined as the net
present value of estimated loan, guarantee and insurance defaults less subsequent
estimated recoveries. Ex-Im Bank has established cash-flow models for expected
defaults, fees and recoveries to estimate the credit loss for each approved credit. For
new authorizations, the models incorporate Ex-Im Bank’s actual historical loss and
recovery experience.

The net credit loss of credit-reform loans, guarantees and insurance is re-estimated
annually in accordance with OMB guidelines and Statement of Federal Financial
Accounting Standards (SFFAS) 18, “Amendments to Accounting Standards for Direct
Loans and Loan Guarantees.” The re-estimates adjust the allowance for credit losses to
account for actual activity and changes in the financial and economic factors that affect
the repayment prospects over time.




                                              3

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


Accounting for Guarantees in a Foreign Currency
Ex-Im Bank provides guarantees and insurance denominated in certain foreign
currencies. The foreign currencies approved for Ex-Im Bank guarantees as of
September 30, 2013, are: Australian dollar, Brazilian real, British pound, Canadian
dollar, CFA franc, Colombian peso, Egyptian pound, euro, Hong Kong dollar, Indian
rupee, Indonesian rupiah, Japanese yen, Korean won, Malaysian ringgit, Mexican peso,
Moroccan dirham, New Zealand dollar, Norwegian krone, Pakistani rupee, Philippine
peso, Polish zloty, Russian ruble, Singapore dollar, South African rand, Swedish krona,
Swiss franc, Taiwanese dollar, Thai baht, UAE dirham. At the time of authorization, Ex-
Im Bank records the authorization amount as the U.S.-dollar equivalent of the foreign-
currency obligation based on the exchange rate at that time. At the end of each fiscal
year, Ex-Im Bank determines the dollar equivalent of the outstanding balance for each
foreign-currency guarantee based on the exchange rate at the end of the year and
adjusts the guarantee loan liability accordingly.

Borrowings from the U.S. Treasury
The main source of Ex-Im Bank's outstanding debt is borrowings from the U.S. Treasury.
Borrowings from the U.S. Treasury are used to finance medium-term and long-term
loans. These borrowings carry a fixed rate of interest. They are further discussed in Note
10.

Payment Certificates
Payment certificates represent Ex-Im Bank's outstanding borrowings related to specific
claims for which Ex-Im Bank is paying the guaranteed lender as the guaranteed
installments become due. Payment certificates are issued by Ex-Im Bank in exchange
for the foreign importer’s defaulted note which was guaranteed by Ex-Im Bank and the
payment certificates carry the same repayment terms and interest rate as the
guaranteed foreign importer’s note. Payment certificates are backed by the full faith and
credit of the government and are freely transferable.

Claims Payable
Liabilities for claims arising from Ex-Im Bank's guarantee and insurance activities and
the related estimated losses and claim recovery expenses are accrued upon approval of
a claim.

Accounts Payable to the U.S. Treasury
Accounts payable to the U.S. Treasury include the results of the credit-loss re-estimate
required under the FCRA. The payable represents funds that are held in credit-reform
financing accounts that are determined to be in excess of amounts needed to cover
future defaults. The payable also includes expired budget authority no longer available
for obligation that will be returned to the U.S. Treasury.

Fees and Premia
Ex-Im Bank charges a risk-related exposure fee under both the loan and guarantee
programs that is collected on each loan disbursement or shipment of goods under the
guarantee policy. This fee is amortized over the life of the credit.




                                            4

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


On working capital guarantees, Ex-Im Bank charges an up-front facility fee, which, due
to the short-term nature of the contracts, is credited to income as collected. Premia
charged under insurance policies are recognized as income using a method that
generally reflects the exposure over the term of the policy.

Appropriated Capital
Appropriations received by Ex-Im Bank pursuant to the FCRA are recorded as paid-in-
capital. Beginning in FY 2008, fees collected in excess of expected credit losses are
used to reimburse the U.S. Treasury for appropriations provided for program and
administrative costs, resulting in a net appropriation of zero. Appropriations received
prior to FY 2008 and not required to finance credit activities are returned to the U.S.
Treasury when the period of availability ends.

Congress has appropriated certain sums specifically for Ex-Im Bank’s tied-aid activities.
Tied-aid is government-to-government concessional financing of public-sector capital
projects in developing countries. Tied-aid terms usually involve total maturities longer
than 20 years, lower than market interest rates and/or direct grants.

Imputed Financing
A financing source is imputed by Ex-Im Bank to provide for pension and other retirement
benefit expenses recognized by Ex-Im Bank but financed by the Office of Personnel
Management (OPM).

Liquidating Account Distribution of Income
Ex-Im Bank maintains a liquidating account which accumulates the repayment on loans
and claims issued prior to the FCRA. At the end of each fiscal year, Ex-Im Bank
transfers the cash balance in this account to the U.S. Treasury. The amount transferred
is detailed on the accompanying Statements of Net Costs.




                                            5

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

2. Fund Balance with the U.S. Treasury

Fund balances as of September 30, 2013 and September 30, 2012 were as follows:

(in millions)                                                   FY 2013        FY 2012
Revolving Funds                                                    $2,652.1       $1,448.5
General Funds - Unexpended Appropriations                             461.2          465.5
General Funds - Offsetting Collections                                200.9          514.3
Other Funds - Unallocated Cash                                         72.8           49.0
      Total                                                        $3,387.0       $2,477.3

Status of Fund Balance with the U.S. Treasury
 Unobligated Balance
    Available                                                      $2,347.3       $2,017.1
    Expired                                                           259.0          250.0
    Canceled and Unavailable                                            2.5            2.9
  Obligated Balance Not Yet Disbursed                                 705.4          158.3
   Funds Pending Application                                           72.8           49.0
     Total                                                         $3,387.0       $2,477.3


Revolving funds are credit-reform financing accounts. Included in the credit-reform
financing accounts are disbursed appropriations, exposure fees collected, and interest
paid by the U.S. Treasury to Ex-Im Bank on the balances in the account. These funds
are available to cover losses in Ex-Im Bank’s credit programs. Unexpended appropriated
funds and unexpended offsetting collections are deposited in a noninterest-bearing
account at the U.S. Treasury. These funds are available to Ex-Im Bank when the credit
activity to which they relate takes place or to finance administrative expenses. Upon
disbursement of the related loans or shipment of goods under guarantee or insurance
policies, the funds become available to either subsidize the related loan disbursement or
to be invested in the credit-reform financing accounts to fund the credit costs of the
guarantee and insurance policies. Unallocated cash represents collections pending final
application to the applicable loan or guarantee.

Unobligated available funds represent unexpired appropriations and offsetting
collections and funds held in credit-reform financing accounts for payment of future
guaranteed loan defaults. Unobligated expired funds represent appropriations and
offsetting collections that are no longer available for new obligations.

Unobligated canceled funds represent appropriations that are no longer available and
are returned to the U.S. Treasury in subsequent years. Obligated balance not yet
disbursed represents appropriations, offsetting collections, and funds held in the loan
financing account awaiting disbursement.

As of September 30, 2013 and September 30, 2012, there were no unreconciled
differences between U.S. Treasury records and balances reported on Ex-Im Bank’s
general ledger.




                                                6

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012


3. Cash

As of September 30, 2013 and September 30, 2012 there was $0.1 million in cash
balances held outside the U.S. Treasury. The amount represents receipts for collection
of insurance premia that are transferred to one of Ex-Im Bank’s U.S. Treasury accounts
upon application to the appropriate credit.

4. Direct Loan, Loan Guarantees and Export-Credit Insurance Programs,
Nonfederal Borrowers

Ex-Im Bank offers fixed-rate loans directly to foreign buyers of U.S. goods and services.
Ex-Im Bank extends to a company’s foreign customer a fixed-rate loan covering up to 85
percent of the U.S. contract value. The buyer must make a cash payment to the U.S.
exporter of at least 15 percent of the U.S. contract value. Ex-Im Bank's direct loans
generally carry the fixed-interest rate permitted for the importing country and term under
the "Arrangement on Guidelines for Officially Supported Export Credits" negotiated
among members of the OECD.

Ex-Im Bank loan guarantees cover the repayment risks on the foreign buyer’s debt
obligations incurred to purchase U.S. exports. Ex-Im Bank guarantees to a lender that, in
the event of a payment default by the borrower, it will pay to the lender the outstanding
principal and interest on the loan. Ex-Im Bank’s comprehensive guarantee covers all of
the commercial and political risks for 85 percent of the U.S. contract value.

Ex-Im Bank’s export-credit insurance helps U.S. exporters sell their goods overseas by
protecting them against the risk of foreign-buyer or other foreign-debtor default for
political or commercial reasons, allowing them to extend credit to their international
customers. Insurance policies may apply to shipments to one buyer or many buyers,
insure comprehensive (commercial and political) credit risks or only political risks, and
cover short-term or medium-term sales.

Credit Reform
The primary purpose of the FCRA is to measure more accurately the cost of federal
credit programs and to place the cost of such credit programs on a basis equivalent with
other federal spending.

OMB established The Interagency Country Risk Assessment System (ICRAS) to provide
a framework for uniformly measuring country risk for the U.S. government’s international
credit programs across the various agencies that administer them. The ICRAS
methodology determines the risk levels for lending to both sovereign governments and
non-sovereign borrowers.

ICRAS rates every country to which U.S. government agencies have outstanding loans
or loan guarantees or are anticipating making new credits available. ICRAS rates
countries on the basis of economic and political/social variables. There are 11 sovereign
and 9 non-sovereign risk categories and each country receives two ratings: a sovereign-
risk rating and a private-risk rating. ICRAS currently has risk ratings for 199 sovereign
and 201 non-sovereign markets.



                                            7

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012


FY 2013 and FY 2012 Activity
Ex-Im Bank received a $4.0 million appropriation in FY 2013 and $4.0 million in FY 2012
for the Inspector General administrative costs.

Beginning in FY 2008, fees collected in excess of expected credit losses (offsetting
collections) are used to cover the Bank’s credit program needs for providing new direct
loans, guarantees and insurance and for administrative costs.

The following table summarizes offsetting collections and appropriations received and
used in FY 2013 and in FY 2012:

(in millions)                                                FY 2013     FY 2012
RECEIVED AND AVAILABLE
  Appropriation for Inspector General Administrative Costs        $4.0       $4.0
  Offsetting Collections                                         242.7      197.9
  Total Received                                                 246.7      201.9

 Unobligated Balance Carried Over from Prior Year                595.9      950.2
 Recission of Unobligated Balances                             (400.0)    (400.0)
 Cancellations of Prior-Year Obligations                          4.2        9.7
Total Available                                                  446.8      761.8

OBLIGATED
 For Credit Program Costs Excluding Tied Aid                      34.1       72.1
 For Credit-Related Administrative Costs                         102.2       90.3
Total Obligated                                                  136.3      162.4

UNOBLIGATED BALANCE
 Unobligated Balance                                            310.5       599.4
 Unobligated Balance Lapsed                                      (8.3)       (3.5)
Remaining Balance                                              $302.2      $595.9




Of the remaining balance of $302.2 million at September 30, 2013, $2.6 million is
available until September 30, 2014; $1.9 million is available until September 30, 2015;
$83.2 million is available until September 30, 2016, and $214.5 million is available until
expended and may be used for tied-aid programs or Congressionally mandated
administrative costs.

New loans, guarantees and insurance result in a program cost (or subsidy cost) when
the net present value of expected cash disbursements exceeds expected cash receipts.
Cash receipts typically include fees or premia, loan principal and interest, and cash
disbursements typically include claim payments and loan disbursements. For new
authorizations, Ex-Im uses both its own historical default and recovery rates in its cash
flow models to calculate program cost.




                                                 8

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

When the present value of expected cash receipts exceeds the present value of
expected cash disbursements, a "negative" credit subsidy (or program revenue) arises.

Starting in FY 2008, Ex-Im Bank has operated on a self-sustaining basis using program
revenue to fund current year administrative expenses and program costs. During FY
2013, Ex-Im Bank collected $1,254.8 million of receipts in excess of estimated credit
losses. Of these offsetting collections, $89.9 million was used to fund administrative
expenses, $1,056.9 million was returned to the U.S Treasury and $108.0 million was
retained and is available for obligation until September 30, 2016. During FY 2012, Ex-Im
Bank collected $1,001.6 million of receipts in excess of estimated credit losses. Of these
offsetting collections, $89.9 million was used to fund administrative expenses, $803.7
million was sent to the U.S. Treasury, and $108.0 million was retained and is available
for obligation until September 30, 2015.

Administrative costs are the costs to administer and service Ex-Im Bank's entire credit
portfolio. The program costs are obligated to cover the estimated subsidy costs at the
time loans, guarantees and insurance are committed. As the loans are disbursed, or
when the insured or guaranteed event has taken place (generally when the related
goods are shipped), the obligated amounts are used to cover the estimated subsidy
costs related to the disbursements and shipments. The portion of the obligated amounts
related to Ex-Im Bank's lending programs is used to partially fund the loan
disbursements, while the portions related to Ex-Im Bank's guarantee and insurance
programs are invested in an interest-bearing account with the U.S. Treasury. Prior to
loan disbursement or the insured or guaranteed event, all of the appropriated funds and
offsetting collections are held in a non-interest-bearing U.S. Treasury account.

Allowance for Loss
The process by which Ex-Im Bank determines its allowance for loss for each fiscal year
involves assessing the repayment risk of the credit, which includes both commercial and
political risk factors, then calculating the loss reserve based on the percentage of loss
associated with the risk level assigned to the credit.

Sovereign risk is associated with an obligor that conveys the full faith and credit of its
country. To rate sovereign obligors, Ex-Im Bank relies on the risk levels assigned to
sovereign countries by ICRAS.

Non sovereign obligors are divided into four categories for risk assessment purposes: (1)
obligors in workout status; (2) obligors rated by third-party rating agencies, such as,
Standard & Poor’s and Moody’s; (3) obligors not rated but publicly traded on local
exchanges; and (4) obligors neither rated nor publicly traded on local exchanges.

After the political and commercial risks of the transaction are assessed, the transaction
is assigned a risk rating based on the standard ICRAS classification. A major
determinant of the risk rating is the sovereign-risk rating of the country in which the
obligor is located. Credit enhancements such as the availability of liens and off-shore
escrow accounts are taken into account.

For pre-credit-reform and nonimpaired loans receivable, Ex-Im Bank determines the
allowance using historical default and recovery rates. The allowance for losses on this
exposure is calculated using the credit loss estimate method. Consistent with industry


                                              9

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

practice in the private sector, this is an estimate of the loss expected due to credit risk
and does not include non-credit factors that are included in the fair-market value method.

Loss reserves on pre-credit-reform impaired credits are determined using the fair-value
method. Impaired credits are defined as those transactions risk rated from 9 to 11, or on
the verge of impairment due to political, commercial, operational and/or technical events
or situations, and/or Acts of God that have affected the Borrower’s ability to service
repayment of Ex-Im Bank credits.

The allowance for losses for credit-reform loans, guarantees and insurance are
determined by the credit loss calculated at authorization and subsequent adjustments
made to the allowance as a result of the annual re-estimate.

Credit Loss Re-Estimate
The estimated credit loss of the outstanding balance of loans, guarantees and insurance
is re-estimated annually in accordance with OMB guidelines and SFFAS 18. This re-
estimate indicates the appropriate balance necessary in the financing accounts to
ensure sufficient funds to pay future estimated claims.

Ex-Im Bank uses its actual historical default and recovery rates to calculate the re-
estimated future credit losses. In the event that the balance in the financing accounts
exceeds the re-estimate level, the difference will not be needed to cover future estimated
claims and will be returned to the U.S. Treasury. In the event that the balance in the
financing accounts is less than the re-estimate level, the FCRA provides that the
difference will be transferred to Ex-Im Bank from a general appropriation account
authorized for this purpose.

Every year, Ex-Im Bank re-evaluates the methods used for calculating the reserves
needed to cover expected losses. The Bank uses historical experience to estimate the
probability of default as well as the loss given default. The probability of default (PD) is
the likelihood that a transaction would go into default where the loss given default (LGD)
gives the estimated loss, net of recoveries and expenses, if a default occurred.
Multiplying PD times LGD provides expected loss factors across programs and budget
cost level (BCL) categories. Ex-Im Bank uses recent historical loss experience and other
factors in developing the predictor interval for the probablility of default.

Prior to FY 2012, Ex-Im Bank relied primarily on quantitative factors to calculate loss
reserves. Because the portfolio grew significantly over the past few years and the
composition of the portfolio became more complex, the Bank analyzed and developed
for FY 2012 credit loss factors that incorporated both a quantitative and an enhanced
qualitative framework. The additional qualitative factors are based on the risk profile of
the Bank’s portfolio and were added to the quantitative factors to better and more
accurately measure risk through the reserve process. The Bank continues to enhance
both its quantitative and qualitative framework. In FY 2013, the Bank incorporated ten
qualitative adjustments into its loss model, of which seven were built into the quantitative
framework. Those built into the quantitative framework include factors such as loss
curves for sovereign guaranteed transactions and asset backed aircraft. Those not built
into the quantitative framework look at minimum levels of expected losses, the global
macroeconomic environment, and the recent growth in the Bank’s portfolio.


                                             10

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


As of September 30, 2013, the re-estimate of the credit loss of the outstanding balances
of FY 1992 through FY 2013 commitments indicated that a net of $492.5 million of
additional funds were needed in the financing accounts, mostly to cover funding costs on
direct loans, which had exceeded original budgeted estimates. This upward re-estimate
will be received from the U.S. Treasury in FY 2014.

As of September 30, 2012, the re-estimate of the credit loss of the outstanding balances
of FY 1992 through FY 2012 commitments indicated that a net of $577.3 million of
additional funds were needed in the financing accounts, mostly to cover funding costs on
direct loans, which had exceeded original budgeted estimates.

A. Direct Loans
Ex-Im Bank's loans receivable, as shown on the Balance Sheet, are net of an allowance
for loan losses.

To calculate the allowance for loan losses for direct loans obligated prior to FY1992,
each of the 11 risk levels is identified with a loss percentage to determine the overall
allowance for credit losses as described above. In addition, certain credits and
capitalized interest included in gross loans receivable are reserved at 100 percent. At
September 30, 2013, and September 30, 2012, capitalized interest on credits obligated
prior to FY 1992 was $87.6 million and $137.2 million, respectively. The total allowance
for direct loans obligated prior to FY 1992, including capitalized interest, equaled 68.7
percent and 82.6 percent, respectively, of gross loans and interest receivable.

The allowance for loss calculated for direct loans obligated since the commencement of
FY 1992 equals the amount of credit loss incurred to support the loan obligation. The
credit loss is the amount of loss estimated to be incurred on the transaction, as
previously described. At September 30, 2013, and September 30, 2012, the allowance
for loan losses on credit-reform credits equaled 9.8 percent and 10.1 percent,
respectively, of the outstanding loans and interest receivable balance.

At September 30, 2013, and September 30, 2012, the allowance for both pre-credit-
reform and credit-reform loans equaled 11.0 percent and 12.7 percent, respectively, of
the total loans and interest receivable.


The outstanding balances related to rescheduled installments included in loans
receivable at September 30, 2013 and September 30, 2012, were $503.9 million and
$704.7 million, respectively. No loan principal installments were rescheduled in FY 2013
and FY 2012. Loan installments of interest rescheduled in FY 2013 and FY 2012 were
$29.6 million and $69.0 million, respectively. The interest rate on rescheduled loans is
generally a floating rate of interest, which is 50.0 basis points over the six-month U.S.
Treasury rate.




                                            11

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


The net balance of loans receivable at September 30, 2013, and September 30, 2012,
consists of the following:
                                    Loans                   Allowance      Value of Assets
                                  Receivable    Interest     for Loan         Related to
FY 2013 (in millions)               Gross      Receivable     Losses      Direct Loans, Net
Loans Obligated Prior to FY 1992        $376.3        $0.4       ($258.6)             $118.1
Loans Obligated After FY 1991         17,871.8       126.2      (1,668.6)           16,329.4
    Total                            $18,248.1      $126.6    ($1,927.2)           $16,447.5


                                     Loans                  Allowance     Value of Assets
                                   Receivable    Interest    for Loan        Related to
FY 2012 (in millions)                Gross      Receivable    Losses     Direct Loans, Net
Loans Obligated Prior to FY 1992        $459.3         $0.4     ($379.8)               $79.9
Loans Obligated After FY 1991          11,894.8        96.5    (1,205.8)           10,785.5
    Total                            $12,354.1        $96.9 ($1,585.6)            $10,865.4


(in millions)                                                      FY 2013         FY 2012
Direct Loans Disbursed During Year (Post-1991)                     $6,663.8        $4,873.4




B. Program Cost and Re-Estimate Expense for Direct Loans by Component

The table below discloses the interest, defaults, fees and re-estimate amounts
associated with program cost disbursed in the current fiscal year on loan authorizations
made in the current and prior fiscal years and the current year loss re-estimate.

 (in millions)                                                          FY 2013       FY 2012
 Interest                                                               ($668.1)      ($255.9)
 Defaults                                                                 176.0           54.1
 Fees and Other Collections                                              (385.7)       (391.2)
    Total                                                                (877.8)       (593.0)

 Net Re-estimate – Principal                                            1,037.1         353.7
 Net Re-estimate – Interest                                                56.3         (10.2)
   Total Net Re-estimate                                                1,093.4         343.5

 Total Direct Loan Program Cost and Re-Estimate Expense                  $215.6       ($249.5)

C. Program Cost Rates for Direct Loans by Program and Component

The program cost rates disclosed below relate to the percentage of program costs on
loan authorizations made in the reporting fiscal year. Because these rates only pertain to
authorizations from the reporting fiscal year, these rates cannot be applied to loan
disbursements in the reporting fiscal year to yield the program cost, which could result
from disbursements of loans from both current and prior years.


                                            12

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 



                                                                 FY 2013    FY 2012
 Interest                                                         (8.1)%    (13.7)%
 Defaults                                                           3.8 %     1.7 %
 Fees and Other Collections                                        (4.3)%    (4.9)%
    Total                                                         (8.7)%    (16.9)%


D. Schedule for Reconciling Direct Loan Allowance Balances

The table below discloses the components of the direct-loan allowance.

 (in millions)                                                   FY 2013     FY 2012
 Post-1991 Direct Loans
 Beginning Balance of the Allowance Account                      $1,205.8    $1,149.4

   Current-Year Program Cost                                      (877.8)      (593.0)
        Subtotal Program Cost                                     (877.8)      (593.0)
       (see Note 4B for Component Breakdown)

   Fees Received                                                    393.3        395.3
   Loans Written Off                                               (27.9)         (0.9)
   Program-Cost Allowance Amortization                              267.0       233.3
   Miscellaneous Recoveries and Costs                             (385.2)      (321.8)
   Ending Balance Before Re-estimate                               575.2         862.3

   Re-estimate                                                    1,093.4       343.5
   Ending Balance of the Allowance Account                      $ 1,668.6    $1,205.8


Program-cost allowance amortization is calculated, as required by SFFAS 18,
“Amendments to Accounting Standards for Direct Loans and Loan Guarantees,” as the
difference between interest revenue and interest expense.




                                               13

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

E. Defaulted Guaranteed Loans

The allowance for defaulted guaranteed loans is calculated using the fair-market value
method as described above. Capitalized interest included in gross defaulted guaranteed
loans receivable is reserved at 100 percent. At September 30, 2013 and September 30,
2012, capitalized interest on pre-credit reform defaulted guaranteed loans was $26.4
million and $33.5 million, respectively. At September 30, 2013 and September 30, 2012,
capitalized interest on credit reform defaulted guaranteed loans was $111.4 million and
$119.2 million, respectively. The total allowance equaled 81.4 percent and 79.8 percent
of gross defaulted guaranteed loans and interest receivable at September 30, 2013, and
September 30, 2012, respectively.




                                    Defaulted                                  Value of Assets
                                   Guaranteed                                    Related to
                                     Loans         Interest     Allowance         Defaulted
                                   Receivable,    Receivable     for Loan       Guaranteed
FY 2013 (in millions)                Gross                        Losses         Loans, Net
 Defaulted Guaranteed Loans
 Obligated Prior to FY 1992              $62.6             $-        ($47.0)             $15.6
 Obligated After FY 1991               1,266.3            1.5      (1,036.4)             231.4
       Total                          $1,328.9           $1.5     ($1,083.4)            $247.0


                                  Defaulted                                    Value of Assets
                                 Guaranteed                                      Related to
                                   Loans          Interest      Allowance         Defaulted
                                 Receivable,     Receivable      for Loan       Guaranteed
FY 2012 (in millions)              Gross                          Losses         Loans, Net
 Defaulted Guaranteed Loans
 Obligated Prior to FY 1992             $73.8             $-        ($60.8)             $13.0
 Obligated After FY 1991              1,425.4            1.4      (1,136.1)             290.7
       Total                         $1,499.2           $1.4     ($1,196.9)            $303.7




                                           14

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


F. Guaranteed Loans and Insurance

Ex-Im Bank is exposed to credit loss with respect to the amount of outstanding
guaranteed loans and insurance policies in the event of nonpayment by obligors under
the agreements. The commitments shown below are agreements to lend monies and
issue guarantees and insurance as long as there is no violation of the conditions
established in the credit agreement.

      (in millions)                                                  FY 2013       FY 2012
      Gross Outstanding Principal of Guaranteed Loans and
      Insurance, Face Value                                        $62,062.7     $56,822.9
      Undisbursed Principal of Guaranteed Loans and Insurance,
           Face Value                                                17,429.7      19,566.0
      Total Principal of Guaranteed Loans and Insurance,
           Face Value                                              $79,492.4     $76,388.9


      Amount of Principal That is Guaranteed and Insured by Ex-    $79,492.4     $76,388.9
      Im Bank

      Gross Amount of Guaranteed Loans and Insurance
      Disbursed During Year, Face Value                            $20,848.4     $21,879.7

      Amount of Guaranteed Loans and Insurance Disbursed
      During Year that is Guaranteed and Insured by Ex-Im Bank     $20,848.4     $21,879.7



G. Liability for Loan Guarantees and Insurance

The liability for loan guarantees and insurance balances of $1,620.8 million at
September 30, 2013 and $1,814.0 million at September 30, 2012 represent post FY
1991 guarantees and insurance credits. Since FY 2011, Ex-Im no longer has pre-FY
1992 liabilities for loan guarantees and insurance outstanding.




                                          15

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


H. Program Cost and Re-Estimate Expense for Loan Guarantees and Insurance by
    Component

The table below discloses defaults, fees and re-estimate amounts associated with the
program cost disbursed in the current year on loan guarantee and insurance
authorizations made in the current and prior fiscal years and the current year loss re-
estimate. The total program cost also includes modifications made on these
authorizations.

      (in millions)                                                     FY 2013        FY 2012
      Defaults                                                           $669.3         $829.0
      Fees and Other Collections                                       (1,003.8)      (1,195.5)
         Total                                                           (334.5)        (366.5)
      Net Re-estimate – Principal                                        (404.4)            290.8
      Net Re-estimate – Interest                                         (196.6)            (57.0)
        Total Net Re-estimate                                            (601.0)            233.8

        Total Loan Guarantee and Insurance Program Cost and            ($935.5)           ($132.7)
         Re-Estimate Expense


I. Program Cost Rates for Loan Guarantees and Insurance by Component

The program cost rates disclosed below relate to the percent of program costs on loan
guarantee and insurance authorizations made in the reporting fiscal year. Because these
rates only pertain to authorizations from the reporting fiscal year, these rates cannot be
applied to the guarantees of loans disbursed during the reporting fiscal year to yield the
program cost, which could result from disbursements of loans from both current and
prior years.

                                                                        FY 2013     FY 2012
      Defaults                                                            4.7%        2.2%
      Fees and Other Collections                                         (6.2)%      (4.8)%
        Total                                                            (1.5)%      (2.6)%




                                            16

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

J. Schedule for Reconciling the Allowance for Loan Guarantee Balances

The table below discloses the components of the allowance for loan guarantees.

(in millions)                                                  FY 2013       FY 2012
Post-1991 Loan Guarantees
Beginning Balance of the Allowance Account                   $ 1,814.0 $ 1,219.5

Current Year Program Cost                                        (335.0)      (367.7)
 Modifications                                                       0.5          1.2
       Subtotal Program Cost                                     (334.5)      (366.5)
      (See Note 4H for Component Breakdown)
 Fees Received                                                   688.2     666.0
 Claim Expenses and Write-Offs                                    (6.1)     21.7
 Interest Accumulation                                            65.7      45.6
 Other                                                            (5.5)     (6.1)
   Ending Balance Before Re-estimate                           2,221.8   1,580.2
Re-estimate                                                    (601.0)     233.8
   Ending Balance of the Allowance Account                   $ 1,620.8 $ 1,814.0


K. Administrative Costs

All of the Bank’s administrative expenses are attributed to the support of the Bank’s loan,
guarantee and insurance programs. Administrative expenses are not allocated to
individual programs.

      (in millions)                                             FY 2013      FY 2012
      Total Administrative Expense                               $115.5        $98.7




                                            17

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 




L. Outstanding Exposure and Allowance by Program



(in millions)                                                         FY 2013      FY 2012
Outstanding Loans                                                      $18,248.1    $12,354.1
Allowance for Loan Losses                                                1,927.2      1,585.6
              Percent Allowance of Outstanding Balance                    10.6%        12.8%

Outstanding Defaulted Loans                                              1,328.9      1,499.2
Allowance for Loan Losses                                                1,083.4      1,196.9
           Percent Allowance of Outstanding Balance                       81.5%        79.8%

Outstanding Guarantees & Insurance                                      62,062.7    56,822.9
Liability for Guarantees & Insurance                                     1,620.8     1,814.0
              Percent Allowance of Outstanding Balance                     2.6%        3.2%




The allowance for losses for Ex-Im Bank credits authorized after the Federal Credit
Reform Act of 1990 (FCRA) equates to the amount of estimated credit loss associated
with the applicable loans, claims, guarantees, and insurance. According to SFFAS 2,
Accounting for Direct Loans and Guarantees, direct loans disbursed and outstanding are
recognized as assets at the present value of their estimated net cash flows. The
difference between the outstanding principal of the loans and the present value of their
net cash inflows is recognized as the allowance for credit losses. For guaranteed loans
outstanding, the present value of estimate net cash flows of the loan guarantee is
recognized as a guaranteed loan liability.
Ex-Im Bank’s credit programs generally have fees and interest rates higher than the
expected default and funding costs, resulting in the net present value of cash inflows to
be greater than the outstanding principal of the credit. This has caused a slight decrease
in the allowance for credit losses as a percent of total credits outstanding.




                                                  18

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


M. Allowance and Exposure Summary


(in millions)                                                                FY 2013        FY 2012
Pre-Credit-Reform Allowance
Allowance for Loan Losses                                                        $258.6        $379.8
Allowance for Defaulted Guarantees                                                 47.0          60.8
              Total Pre-Credit-Reform Allowance                                   305.6         440.6

Credit-Reform Allowance
Allowance for Loan Losses                                                       1,668.6       1,205.8
Allowance for Defaulted Guarantees and Insurance                                1,036.4       1,136.1
Liability for Loan Guarantees and Insurance                                     1,620.8       1,814.0
              Total Credit-Reform Allowance                                     4,325.8       4,155.9

Total Allowance for Loan Losses                                                 1,927.2       1,585.6
Total Allowance for Guarantees and Insurance                                    2,704.2       3,010.9
           Total Allowance                                                     $4,631.4      $4,596.5

Total Outstanding Balance of Loans, Guarantees and Insurance                 $81,639.7      $70,676.2
Percent Allowance to Outstanding Balance                                          5.7%           6.5%

Total Exposure                                                              $113,825.3 $106,646.4
Percent Allowance to Exposure                                                     4.1%       4.3%




5. Accrual of Interest

The weighted-average interest rate on Ex-Im Bank's loan and rescheduled claim
portfolio at September 30, 2013, was 2.78 percent (2.85 percent on performing loans
and rescheduled claims). The weighted-average interest rate on Ex-Im Bank's loan and
rescheduled claim portfolio at September 30, 2012, was 3.00 percent (3.13 percent on
performing loans and rescheduled claims). Interest income is recognized when collected
on nonrescheduled claims.

Generally, the accrual of interest on loans and rescheduled claims is discontinued when
the credit is delinquent for more than 90 days. Ex-Im Bank had a total of $382.4 million
and $47.9 million of loans and rescheduled claims, respectively, in nonaccrual status at
September 30, 2013. Ex-Im Bank had $481.7 million and $60.2 million of loans and
rescheduled claims, respectively, in nonaccrual status at September 30, 2012. Had
these credits been in accrual status, interest income would have been $21.7 million
higher as of September 30, 2013 (amount is net of interest received of $1.3 million), and
$25.1 million higher in FY 2012 (amount is net of interest received of $2.6 million).




                                              19

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

6. Statutory Limitations on Lending Authority

Under provisions of the Export-Import Bank Act, as amended in FY 2012, Ex-Im Bank’s
statutory authority was $130.0 billion in FY 2013 and $120.0 billion in FY 2012, of loans,
guarantees and insurance exposure at any one time. At September 30, 2013, and
September 30, 2012, Ex-Im Bank's statutory authority used was as follows:




(in millions)                    FY 2013                    FY 2012
Outstanding Guarantees              $59,195.7               $54,133.5
Outstanding Loans                    18,248.1                12,354.1
Outstanding Insurance                 2,867.0                 2,689.4
Outstanding Claims                    1,328.9                 1,499.2
  Total Outstanding                  81,639.7                70,676.2

Undisbursed Loans                    14,755.9                16,404.2
Undisbursed Guarantees               11,148.6                12,726.7
Undisbursed Insurance                 6,281.1                 6,839.3
 Total Undisbursed                   32,185.6                35,970.2

 Total Exposure                    $113,825.3              $106,646.4


Transactions can be committed only to the extent that budget authority is available to
cover program costs. For FY 2013 and FY 2012, Congress placed no limit on the total
amount of loans, guarantees and insurance that could be committed in those years,
provided that the statutory authority established by the Export-Import Bank Act was not
exceeded.

During FY 2013, Ex-Im Bank committed $6,878.4 million for direct loans, $20,464.7
million for guarantees and insurance, using $34.1 million of budget authority and no tied-
aid funds. During FY 2012, Ex-Im Bank committed $11,764.5 million for direct loans,
$24,019.8 million for guarantees and insurance, using $72.1 million of budget authority
and no tied-aid funds.




                                            20

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


Ex-Im Bank has authorized guarantee transactions denominated in a foreign currency
during FY 2013 totaling $1,040.1 million, and authorized $1,721.2 million during FY
2012, as calculated at the exchange rate at the time of authorization. Ex-Im Bank adjusts
the allowance for all transactions denominated in a foreign currency using the various
foreign-currency exchange rates at the end of the fiscal year.

For financial statement purposes, Ex-Im Bank defines exposure as the authorized
outstanding and undisbursed principal balance of loans, guarantees, and insurance. It
also includes the unrecovered balance of payments made on claims that were submitted
to Ex-Im in its capacity as guarantor or insurer under the export guarantee and
insurance programs. Exposure does not include accrued interest or transactions pending
final approval. This corresponds to the way activity is charged against the Bank’s overall
$130 billion lending limit imposed by Section 6(a)(2) of Ex-Im Bank’s charter.

Working capital guarantees may be approved for a single loan or a revolving line of
credit, with an availability generally of one year. Guaranteed lenders do not report
activity to Ex-Im Bank, the entire credit is assumed to be “disbursed” when the fee is
paid to the Bank. The credit is recorded as repaid in one installment six months after the
expiry date of the credit unless the Controller’s office is notified before that time that a
claim has been paid. Under the assumption that the exporter is using the credit up to the
end of the expiry period, six months provides sufficient time for the guaranteed lender to
report defaults to Ex-Im Bank in the event that the exporter does not repay the credit. If a
claim is paid, the remaining outstanding balance of the credit associated with the claim is
reduced to zero. Exposure is then reflected as an unrecovered claim.

Since there is typically a delay in reporting shipments under the insurance program,
undisbursed balances remain on the books for 120 days after the expiry date to allow for
the posting of shipments that took place within the period covered by the policy but were
reported after the expiry date. These unreported shipments pose some liability in the
form of claims that have been incurred but not yet reported (IBNR). Leaving the policy
open past the expiry date provides a reserve for IBNR.

7. Concentration of Risk

Ex-Im Bank support is available to U.S. businesses exporting to countries around the
world. The Bank’s portfolio is concentrated more heavily in some regions, industries and
obligors than others. In reviewing each transaction, Ex-Im Bank considers the option of
using various credit enhancements to support its standard for a reasonable assurance of
repayment. Various types of collateral, including liens on commercial aircraft, may or
may not be appropriate or available in support of a credit.

The volatility in commodity prices, the fluctuation in currency exchange rates, and the
tightening of credit markets may have an impact on a borrower’s ability to service their
obligations. Ex-Im Bank closely monitors the portfolio and makes appropriate rating
adjustments and loss reserve adjustments as necessary.




                                            21

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

The following tables summarize total exposure by geographic region as of September
30, 2013 and September 30, 2012:


2013 (in millions)
Region                            Amount       Percentage
Asia                              $46,463.2         40.8%
Latin America & Caribbean          21,454.2         18.8%
Europe                             15,711.8         13.8%
North America                      10,496.9          9.2%
Oceania                             8,255.5          7.3%
Africa                              5,548.3          4.9%
All Other                           5,895.4          5.2%
 Total                           $113,825.3        100.0%


2012 (in millions)
Region                            Amount       Percentage
Asia                              $42,345.3         39.7%
Latin America & Caribbean          22,104.6         20.7%
Europe                             11,303.8         10.6%
North America                      10,579.3          9.9%
Oceania                             8,305.0          7.8%
Africa                              5,770.8          5.4%
All Other                           6,237.6          5.9%
 Total                           $106,646.4        100.0%




The following tables summarize total exposure by industry as of September 30, 2013
and September 30, 2012:


2013 (in millions)
Industry                         Amount        Percentage
 Air Transportation               $51,337.8          45.1%
 Manufacturing                     20,632.3         18.1%
 Oil & Gas                         16,718.9         14.7%
 Power Projects                     7,370.1           6.5%
 All Other                         17,766.2          15.6%
  Total                          $113,825.3        100.0%




                                         22

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

2012 (in millions)
Industry                            Amount          Percentage
 Air Transportation                  $49,419.6            46.3%
 Manufacturing                        18,091.0           17.0%
 Oil & Gas                            13,938.7           13.1%
 Power Projects                        8,649.2             8.1%
 All Other                            16,547.9            15.5%
  Total                             $106,646.4          100.0%

The following tables summarize the five largest public and private obligors at September
30, 2013 and September 30, 2012:

2013 (in millions)
Obligor                                       Amount     Percentage
Pemex                                        $6,215.9         5.5%
Sadara Chemical Co.                           4,730.0         4.2%
Ryanair Ltd.                                  3,368.4         3.0%
Papua New Guinea LNG Global Comp.             3,000.0         2.6%
Australia Pacific LNG Processing Pty Ltd      2,865.5         2.5%
All Other                                    93,645.5        82.2%
 Total                                     $113,825.3       100.0%




2012 (in millions)
Obligor                                       Amount Percentage
Pemex                                        $5,746.0     5.4%
Sadara Chemical Co.                           4,975.4     4.7%
Ryanair Ltd.                                  3,666.1     3.4%
Various Government Entities of India          3,476.3     3.3%
Papua New Guinea LNG Global Comp.             3,000.0     2.8%
All Other                                    85,782.6    80.4%
 Total                                     $106,646.4   100.0%

The following tables summarize total exposure by country as of September 30, 2013 and
September 30, 2012:

2013 (in millions)
Country                              Amount         Percentage
 Mexico                                $9,425.1            8.3%
 India                                  8,142.8            7.2%
 Saudi Arabia                           6,954.1            6.1%
 United Arab Emirates                   6,209.0            5.5%
 Ireland                                4,879.9            4.3%
 All Other                             78,214.3           68.6%
   Total                             $113,825.3          100.0%




                                              23

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

2012 (in millions)
Country                          Amount         Percentage
 Mexico                            $9,510.9            8.9%
 Saudi Arabia                       7,339.4            6.9%
 United Arab Emirates               6,699.8            6.3%
 India                              6,520.6            6.1%
 Ireland                            4,948.1            4.6%
 All Other                         71,627.6          67.2%
   Total                         $106,646.4         100.0%


The following tables summarize the largest exposures by program by country as of 

September 30, 2013 and September 30, 2012: 


Loans Outstanding and Undisbursed: 


2013 (in millions)

Country                                Amount    Percentage
Saudi Arabia                            $6,328.8      19.3%
Australia                                3,443.2      10.4%
United Kingdom                           2,751.4       8.3%
Colombia                                 2,650.0       8.0%
All Other                               17,830.6      54.0%
 Total                                 $33,004.0    100.0%

2012 (in millions)
Country                                Amount    Percentage
Saudi Arabia                            $6,659.0     23.2%
Australia                                3,461.6     12.0%
Colombia                                 2,650.0       9.2%
United Arab Emirates                     2,459.3       8.6%
All Other                               13,528.4     47.0%
 Total                                 $28,758.3    100.0%


Subrogated Claims:

2013 (in millions)
Country                                            Amount     Percentage
Mexico                                             $302.2         22.7%
Kazakhstan                                           106.7         8.0%
Philippines                                           57.5         4.3%
Brazil                                                56.1         4.2%
All Other                                            806.4        60.8%
 Total                                            $1,328.9       100.0%




                                          24

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

2012 (in millions)
Country                                      Amount     Percentage
Mexico                                        $319.7        21.3%
Indonesia                                      257.2        17.2%
Kazakhstan                                     140.3         9.4%
Serbia                                         111.5         7.4%
All Other                                      670.5        44.7%
  Total                                     $1,499.2       100.0%




Guarantees and Insurance:

2013 (in millions)
Country                                      Amount     Percentage
Mexico                                      $7,652.0         9.6%
India                                        5,503.5         6.9%
Ireland                                      4,704.4         5.9%
United Arab Emirates                         4,593.1         5.8%
All Other                                   57,039.4        71.8%
  Total                                    $79,492.4       100.0%


2012 (in millions)
Country                                      Amount     Percentage
Mexico                                      $7,076.8         9.3%
India                                        4,968.8         6.5%
Ireland                                      4,756.3         6.2%
United Arab Emirates                         4,240.5         5.6%
All Other                                   55,346.5        72.4%
  Total                                    $76,388.9       100.0%




8. Other Assets

     (in millions)                                                    FY 2013      FY 2012
     Commitment Fee Receivables                                         $32.7        $20.8
     Other                                                                1.0          2.0
         Total Other Assets                                             $33.7        $22.8

Commitment fees are charged on the undisbursed, unexpired balance of loans and
certain guarantees. The Other category includes miscellaneous receivables, including
assets acquired through claims recovery.




                                          25

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


9. Liabilities Not Covered by Budgetary Resources

Liabilities not covered by budgetary resources are included in Other Liabilities on the
Balance Sheet as follows:

 Ex-Im Bank's liability to employees for accrued unfunded annual leave, included in
Other Liabilities on the Balance Sheets, was $4.4 million as of September 30, 2013 and
$4.1 million as of September 30, 2012. The liability will be paid from future administrative
expense budget authority.


10. Debt

Ex-Im Bank’s outstanding borrowings come from two sources: direct borrowing from the
U.S. Treasury, and the assumption of repayment obligations of defaulted guarantees
under Ex-Im Bank’s guarantee program via payment certificates.

Ex-Im Bank’s total debt at September 30, 2013, and September 30, 2012, is as follows:


  (in millions)                                            FY 2013               FY 2012
  U.S. Treasury Debt
    Beginning Balance                                     $11,301.3              $8,279.3
    New Borrowings                                          7,759.5                4,941.3
    Repayments                                              (959.0)              (1,919.3)
     Ending Balance                                       $18,101.8             $11,301.3

  Debt Held by the Public
   Beginning Balance                                          $47.5                 $64.3
   New Borrowings                                                0.5                   0.2
   Repayments                                                 (14.9)                (17.0)
    Ending Balance                                            $33.1                 $47.5

  Total Debt                                              $18,134.9             $11,348.8


Ex-Im Bank had $18,101.8 million of borrowings outstanding with the U.S. Treasury at
September 30, 2013, and $11,301.3 million at September 30, 2012, with a weighted-
average interest rate of 3.44 percent at September 30, 2013, and 3.99 percent at
September 30, 2012.

U.S. Treasury borrowings are repaid primarily with the repayments of medium-term and
long-term loans. To the extent repayments on the underlying loans, combined with
commitment and exposure fees and interest earnings received on the loans, are not
sufficient to repay the borrowings, appropriated funds are available to Ex-Im Bank
through the re-estimation process for this purpose. Accordingly, U.S. Treasury
borrowings do not have a set repayment schedule; however, the full amount of the
borrowings is expected to be repaid by FY 2042.




                                            26

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


Payment certificates are issued by Ex-Im Bank in exchange for the foreign obligor’s
original note that was guaranteed by Ex-Im Bank on which Ex-Im Bank has paid a claim
and carries the same repayment term and interest rate as the foreign obligor’s note.
Payment certificates are backed by the full faith and credit of the U.S. government and
are freely transferable.

Outstanding payment certificates at September 30, 2013, and September 30, 2012,
were $33.1 million, and $47.5 million, respectively. Maturities of payment certificates at
September 30, 2013, are as follows:

                               (in millions)
                               Fiscal Year             Amount
                               2014                           $1.8
                               2015                            0.6
                               2016                           19.1
                               2017                           11.6
                               Total                         $33.1


The weighted-average interest rate on Ex-Im Bank's outstanding payment certificates at
September 30, 2013, and September 30, 2012, was 3.61 percent and 3.79 percent,
respectively.

11. Other Liabilities

(in millions)                                                            FY 2013    FY 2012
Current
   Funds Held Pending Application                                           $91.5      $47.0
   Administrative Expenses Payable                                           11.5       10.4
   Miscellaneous Accrued Payables                                             1.9        1.5
Non-Current
   Deferred Revenue                                                        158.7       504.1
  Total Other Liabilities                                                 $263.6      $563.0


As of September 30, 2013 and September 30, 2012, $158.7 million and $504.1 million
respectively represent deferred revenue in the form of offsetting collections which are
available to cover administrative expenses and program costs.

12. Leases

Ex-Im Bank’s headquarters office space is leased from the General Services
Administration through the Public Buildings Fund. Lease expenses, included in
Administrative Costs on the Statements of Net Costs were $6.3 million in FY 2013 and
$5.7 million in FY 2012. FY 2015 lease expense does not reflect full year expense
because the lease expires on December 31, 2014. At that time the lease will be
renegotiated. Future payments under the lease are as follows:




                                               27

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


                            (in millions)

                            Fiscal Year             Amount

                            2014                        $6.2
                            2015                         1.6
                            Total                       $7.8




13. Commitments and Contingencies

Pending Litigation
As of September 30, 2013, Ex-Im Bank was named in several legal actions, virtually all
of which involved claims under the guarantee and insurance programs. It is not possible
to predict the eventual outcome of the various actions; however, it is management's
opinion that these claims will not result in liabilities to such an extent that they would
materially affect the financial position or results of operations of Ex-Im Bank.




                                             28

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


Project Finance
In project-finance transactions, Ex-Im Bank’s support during the construction period is
generally in the form of a direct credit or comprehensive guarantee to the commercial
lender. At the end of the construction period, the borrower in some cases has the
opportunity to convert the commercial guaranteed financing to an Ex-Im Bank direct
loan. As of September 30, 2013 and September 30, 2012, Ex-Im Bank had $234.8
million and $316.0 million, respectively, of such contingent loan commitments
outstanding.

Take Out Option
In prior years, Ex-Im Bank offered a “take-out” option available on all U.S. dollar, floating
rate medium-term and long-term guarantees. The option allowed banks to transfer the
loan to Ex-Im following origination for a set of predetermined fees. While this program
has been discontinued, as of September 30, 2013 and September 30, 2012, Ex-Im Bank
still had $377.1 million and $402.2 million, respectively, of such contingent loan
commitments outstanding.




                                             29

                          Export-Import Bank of the United States 

                             Notes to the Financial Statements 

         For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


     14. Disclosures Related to the Statements of Net Costs

     Ex-Im Bank’s Statements of Net Costs lists the costs and revenues associated with each 

     of the Bank’s lines of business, namely the loan, guarantee and insurance programs. 

     The intragovernmental and public costs and revenues associated with each program, 

     and administrative expenses, are disclosed below. Ex-Im Bank does not allocate 

     administrative expenses by program. 



Public Costs and Public Revenue
(in millions)                                                                         Administrative
                                             Loans         Guarantees    Insurance      Expenses       Total

For the Year Ended September 30, 2013
Intragovernmental Costs                       $666.9            $-           $-               $6.7     $673.6
Public Costs                                  1,037.4           (72.8)       45.9            108.8     1,119.3
  Total Costs                                 1,704.3           (72.8)       45.9            115.5     1,792.9

Intragovernmental Revenue                      (159.3)          (62.9)        (2.2)            -         (224.4)
Public Revenue                                 (541.9)         (440.9)       (45.8)            -       (1,028.6)
   Total Revenue                               (701.2)         (503.8)       (48.0)            -       (1,253.0)

Liquidating Account Distribution of Income                                                                 -

Net Excess of Program Costs Over (Revenue)                                                              $539.9


For the Year Ended September 30, 2012
Intragovernmental Costs                       $523.9            $-           $-               $6.2     $530.1
Public Costs                                   341.4            651.8        47.2             92.5     1,132.9
  Total Costs                                  865.3            651.8        47.2             98.7     1,663.0

Intragovernmental Revenue                      (133.1)          (43.8)        (1.8)            -        (178.7)
Public Revenue                                 (365.7)         (349.9)       (40.6)            -        (756.2)
   Total Revenue                               (498.8)         (393.7)       (42.4)            -        (934.9)

Liquidating Account Distribution of Income                                                                23.4

Net Excess of Program Costs Over (Revenue)                                                              $751.5


     Intragovernmental costs include interest expense paid to the U.S. Treasury related to 

     borrowings associated with the funding of credit-reform direct loans and administrative 

     costs paid to other government agencies. Intragovernmental revenues represent interest 

     from the U.S. Treasury on cash balances in the credit-reform financing accounts.





                                                     30

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


Public costs represent costs which the Bank incurs to support the business programs.
These costs are comprised primarily of the provision for loss on the loan and guarantee
portfolio, and administrative costs paid to the public. Public revenue represents income
items which are generated as a result of operating the loan, guarantee and insurance
programs. This revenue primarily relates to the fee and interest income on the
outstanding credits.


15. Disclosures Related to the Combined Statements of Budgetary Resources

Combined Statements of Budgetary Resources disclose total budgetary resources
available to the Bank and the status of such resources at September 30, 2013 and
September 30, 2012. Activity impacting budget totals of the overall U.S. government
budget is recorded in Ex-Im Bank’s Combined Statements of Budgetary Resources
budgetary accounts. Activity which does not impact budget totals is recorded in Ex-Im
Bank’s Combined Statements of Budgetary Resources nonbudgetary accounts. As of
September 30, 2013 and September 30, 2012, the Bank’s resources in budgetary
accounts totaled $1,739.3 million and $1,844.3 million respectively. As of September 30,
2013 and September 30, 2012, the Bank’s resources in nonbudgetary accounts totaled
$11,111.8 million as of September 30, 2012, and $16,458.6 million respectively.

Adjustments to Beginning Balance of Budgetary Resources
Ex-Im Bank made no adjustments to the beginning budgetary resources during the years
ended September 30, 2013, and September 30, 2012.

Apportionment Categories of Obligations Incurred
Ex-Im Bank funds are apportioned in Category B, which restricts the use of funds by
program. The amount of Category B apportionments that were obligated in FY 2013 and
FY 2012 totaled $10,244.8 million and $16,035.9 million, respectively.

Permanent Indefinite Appropriations
The FCRA requires an annual re-estimate of the credit loss allowance. In the event that
there is an increase in estimated defaults, there is permanent and indefinite budget
authority available for this purpose. In FY 2013, the Bank received $577.3 million of
permanent indefinite appropriations as a result of the FY 2012 re-estimate. In FY 2012,
the Bank received $102.2 million of permanent indefinite appropriations as a result of the
FY 2011 re-estimate.

Available Borrowing Authority and Terms of Borrowing
Ex-Im Bank in part relies on borrowings from the U.S. Treasury to help fund the Bank’s
loan program. U.S. Treasury borrowings are repaid primarily with the repayments of
medium-term and long-term loans. To the extent repayments on the underlying loans,
combined with commitment and exposure fees and interest earnings received on the
loans, are not sufficient to repay the borrowings, permanent and indefinite appropriated
funds are available to Ex-Im Bank through the re-estimation process for this purpose.
Accordingly, U.S. Treasury borrowings do not have a set repayment schedule; however,
the full amount of the borrowings is expected to be repaid by FY 2042.

For FY 2013 and FY 2012, Ex-Im Bank had $5,746.9 million and $13,640.5 million,
respectively, in new borrowing authority with the U.S. Treasury, respectively.


                                           31

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012


Unobligated Balances
Unobligated balances at September 30, 2013 totaled $2,606.3 million. Of the $2,606.3
million, $283.8 million is available to cover program costs for new credits, $2,063.5
million represents the amount in the guarantee and insurance financing account that is
available to cover future defaults, and $259.0 million is unavailable for new obligations.

Unobligated balances at September 30, 2012 totaled $2,267.0 million. Of the $2,267.0
million, $607.7 million was available to cover program costs for new credits, $1,409.3
million represents the amount in the guarantee and insurance financing account that was
available to cover future defaults, and $250.0 million was unavailable for new obligations

Differences between Combined Statements of Budgetary Resources and Budget
of U.S. Government
There are no differences between the budgetary resources shown on the Combined
Statements of Budgetary Resources and the Budget of the U.S. Government.

16. Reconciliation of Net Cost of Operations to Budget

The following schedule reconciles the Net Cost of Operations to the Bank’s budgetary
and financial accounting. The reconciliation illustrates the relationship between net
obligations derived from Ex-Im Bank’s budgetary accounts and the net cost of operations
derived from Ex-Im Bank’s proprietary accounts by identifying and explaining key
differences between the two numbers.




                                            32

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012 


                                                                                  For the Year      For the Year
                                                                                    Ended             Ended
                                                                                 September 30,     September 30,
(in millions)                                                                        2013              2012
Resources Used To Finance Activities
Budgetary Resources Obligated
         Obligations Incurred                                                         $10,244.8         $16,035.9

           Less: Spending Authority from Offsetting Collections and Recoveries          5,170.4           3,704.9
         Net Obligations                                                                5,074.4          12,331.0
Other Resources
         Imputed Financing from Costs Absorbed by Others                                    3.5               3.1
Total Resources Used To Finance Activities                                              5,077.9          12,334.1

Resources Used To Finance Items Not Part of Net Cost of Operations
           Change in Budgetary Resources Obligated for Goods, Services, and
           Benefits Ordered but Not Yet Provided                                       $1,480.6         ($7,677.3)
           Resources That Fund Expenses in Prior Periods                               (1,024.4)           (789.3)

          Budgetary Offsetting Collections and Receipts That Do Not Affect
           Net Cost of Operations
                - Credit-Program Collections                                            2,638.6           2,432.8
          Resources That Finance the Acquisition of Assets                             (8,452.6)         (6,644.4)
          Distribution of Income                                                             -               23.4
Total Resources That Do Not Finance Net Cost of Operations                             (5,357.8)        (12,654.8)


Total Resources Used To Finance the Net Cost of Operations                               (279.9)           (320.7)

Components of the Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Periods
         Allowance Amortization                                                          $548.2            $461.2
         Provision for Loss -- Pre-Credit-Reform Credits                                  (47.0)            (25.1)
         Downward Re-estimate of Credit-Losses                                           (970.9)           (486.3)
         Upward Re-estimate of Credit-Losses                                            1,434.5           1,023.0
         Change in Receivables                                                           (264.1)           (158.2)
         Change in Payables                                                                 9.3               0.2
Total Components Requiring or Generating Resources in Future Periods                      710.0             814.8

Components Not Requiring or Generating Resources
       Deferral Adjustments                                                               109.8             257.4
Total Components Not Requiring or Generating Resources                                    109.8             257.4




Total Components of Net Cost of Operations That Will Not Require or
Generate Resources in the Current Period                                                 $819.8          $1,072.2

Net Excess Program Costs Over (Revenue)                                                  $539.9            $751.5




                                                  33
                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

17. Related-Party Transactions

The financial statements reflect the results of contractual agreements with the Private
Export Funding Corporation (PEFCO). PEFCO, which is owned by a consortium of
private-sector banks, industrial companies and financial services institutions, makes
medium-term and long-term fixed-rate and variable-rate loans to foreign borrowers to
purchase U.S. made equipment when such loans are not available from traditional
private sector lenders on competitive terms. Ex-Im Bank’s credit and guarantee
agreement with PEFCO extends through December 31, 2020. Through its contractual
agreements with PEFCO, Ex-Im Bank exercises a broad measure of supervision over
PEFCO's major financial management decisions, including approval of both the terms of
individual loan commitments and the terms of PEFCO's long-term debt issues, and is
entitled to representation at all meetings of PEFCO's board of directors, advisory board
and exporters' council.

PEFCO has agreements with Ex-Im Bank which provide that Ex-Im Bank will (1)
guarantee the due and punctual payment of principal and interest on export loans made
by PEFCO and (2) guarantee the due and punctual payment of interest on PEFCO's
long-term secured debt obligations when requested by PEFCO. Such guarantees,
aggregating $7,516.4 million at September 30, 2013 ($6,564.0 million related to export
loans and $952.4 million related to secured debt obligations) and $6,095.6 million at
September 30, 2012 ($5,207.5 million related to export loans and $888.1 million related
to secured debt obligations), are included by Ex-Im Bank in the total for guarantee,
insurance and undisbursed loans and the allowance related to these transactions is
included in the Guaranteed Loan Liability on the Balance Sheets. Ex-Im Bank received
fees totaling $43.2 million in FY 2013 ($43.1 million related to export loans and
$0.1million related to secured debt obligations) and $32.5 million in FY 2012 ($32.2
million related to export loans and $0.3 million related to secured debt obligations) for
the agreements, which are included in Fee and Other Revenue on the Statements of Net
Costs.

Ex-Im Bank has significant transactions with the U.S. Treasury. The U.S. Treasury,
although not exercising control over Ex-Im Bank, holds the capital stock of Ex-Im Bank
creating a related-party relationship between Ex-Im Bank and the U.S. Treasury.




                                           34

                    Export-Import Bank of the United States 

                       Notes to the Financial Statements 

   For the Year Ended September 30, 2013 and Year Ended September 30, 2012

18. Contributions to Employee Retirement Systems

All of Ex-Im Bank's employees whose appointments have federal status are covered by
either the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement System (FERS).

In FY 2013 and FY 2012, Ex-Im Bank withheld 7.0 percent of CSRS employees’ gross
earnings. Ex-Im Bank’s contribution was 7.0 percent of employees' gross earnings. This
sum was transferred to the CSRS fund from which this employee group will receive
retirement benefits.

For FERS, Ex-Im Bank withheld 0.8 percent of employees' gross earnings. Ex-Im Bank’s
contribution was 11.2 percent of employees' gross earnings in FY 2013 and FY 2012.
This sum was transferred to the FERS fund from which the employee group will receive
retirement benefits. An additional 6.2 percent of gross earnings, after pre-tax deductions
are withheld up to the 2013 and 2012 limit of $113,700 and $110,100, respectively; that
sum plus matching contributions by Ex-Im Bank are sent to the Social Security System
from which the FERS employee group will receive Social Security benefits.

FERS and CSRS employees may elect to participate in the Thrift Savings Plan (TSP).
CSRS and FERS employees may contribute up to $17,500 of gross earnings. In
addition, FERS employees receive an automatic 1 percent contribution from Ex-Im Bank.
Amounts withheld for FERS employees are matched by Ex-Im Bank up to 4 percent for a
maximum Ex-Im Bank contribution to the TSP of 5 percent.

Total Ex-Im Bank (employer) matching contributions to the TSP, CSRS and FERS for all
employees, included in Administrative Costs in the Statements of Net Costs, were
approximately $6.7 million in FY 2013 and $6.4 million in FY 2012. Although Ex-Im Bank
funds a portion of pension benefits under the CSRS and FERS relating to its employees
and makes the necessary payroll withholdings for them, it has no liability for future
payments to employees under these programs and does not account for the assets of
the CSRS and FERS, nor does it have actuarial data with respect to accumulated plan
benefits or the unfunded pension liability relative to its employees. These amounts are
reported by the OPM for the Retirement Systems and are not allocated to the individual
employers. The excess of total pension expense over the amount contributed by Ex-Im
Bank and its employees represents the amount of pension expense which must be
financed directly by OPM. Ex-Im Bank recognizes an imputed cost and an imputed
financing source, calculated using cost factors supplied by OPM, equal to the excess
amount.

OPM also accounts for the health and life insurance programs for current and retired
civilian federal employees. Similar to the accounting treatment afforded the retirement
programs, the actuarial data related to the health and life insurance programs is
maintained by OPM and is not available on an individual-employer basis. Ex-Im Bank
recognizes an imputed cost and an imputed financing source for the future cost of these
other retirement benefits (ORB) at the time the employee’s services are rendered. This
ORB expense is calculated using cost factors supplied by OPM and must be financed by
OPM




                                            35

Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
